                                                                              OFFICE OF THE CHIEF
U.S. Departm ent of Labor                                                     FINANCIAL OFFICER
                            O ffice of Inspector G eneral— O ffice of Audit




                                                                              Ineffective Implementation of OMB
                                                                              Internal Controls and Other Deficiencies
                                                                              Put the Transit Subsidy Program
                                                                              at Risk for Abuse




                                                                                                    Date Issued:     March 31, 2009
                                                                                                    Report Number: 02-09-202-13-001
U.S. Department of Labor                                 March 2009
Office of Inspector General
Office of Audit                                          WHAT OIG FOUND

                                                         The Office of the Assistant Secretary for Administration
BRIEFLY…                                                 and Management (OASAM) did not effectively
                                                         implement 6 of the 10 minimum required internal
Highlights of Report Number: 02-09-202-13-001,           controls prescribed by OMB to prevent abuse and
Ineffective Implementation of OMB Internal               improve the administration of the transit subsidy
Controls and Other Deficiencies Put the Transit          program. These controls were not implemented
Subsidy Program at Risk for Abuse, Office of             because OASAM considered controls as not
the Chief Financial Officer                              required or cost effective; manager’s or supervisor’s
                                                         responsibilities were not defined on applications;
                                                         and a manual data verification process was used.
WHY READ THE REPORT                                      Furthermore, of the 183 applications statistically
                                                         selected for review, 24 were missing because
Executive Order 13150 of April 21, 2000,
                                                         applications were haphazardly filed. As a result, a
established the Federal Workforce Transportation
                                                         minimum of nine percent of transit subsidies were
program to reduce Federal employees’ contribution
                                                         not properly calculated, and employees may not
to traffic congestion and air pollution, and to expand
                                                         have been eligible for transit benefits.
their use of public transportation. Each Federal
agency is permitted to provide a non-taxable transit
                                                         Additional control deficiencies put the National
subsidy designed to encourage its employees to use
                                                         transit subsidy program at risk for abuse. These
mass transit for their daily commute.
                                                         deficiencies were caused by management not:
                                                         enforcing the suspension of transit benefits;
The Government Accountability Office reported
                                                         recertifying applications annually; performing
numerous instances of fraud and abuse of the
                                                         automated edit checks to prevent overpayments; or
Federal Workforce Transportation program by
                                                         having a policy to control blank SmarTrip cards. As a
Federal employees. To prevent further abuse, the
                                                         result, benefits may have been paid to non-DOL
Office of Management and Budget (OMB) issued a
                                                         employees; applications were not submitted
memorandum on May 14, 2007, listing 10 minimum
                                                         annually; employees may have received more than
internal controls and required all Federal agencies to
                                                         the maximum transit subsidy allowed; and SmarTrip
confirm, no later than June 30, 2007, that they have
                                                         cards were not accounted for.
implemented these controls. On June 22, 2007, the
Department of Labor (DOL) affirmed to OMB its
compliance with the 10 minimum required internal         WHAT OIG RECOMMENDED
controls specified to prevent abuse and improve the
administration of the program.                           We made nine recommendations to the Acting Chief
                                                         Financial Officer to improve management controls
WHY OIG DID THE AUDIT                                    over the National transit subsidy program.

The audit objective was to determine if the internal     The Acting CFO generally agreed with the findings
controls prescribed by OMB were properly                 and has taken actions or plans to take actions to
implemented for the National Capital Region              address the findings and recommendations to
(National) transit subsidy program.                      ensure compliance with the prescribed OMB internal
                                                         controls and improve other controls over the
                                                         National transit subsidy program.
READ THE FULL REPORT

To view the report, including the scope,
methodology, and full agency response, go to:

http://www.oig.dol.gov/publicreports/oa/2009/02-09-
202-13-001.pdf.
                                                           U.S. Department of Labor – Office of Inspector General



Table of Contents
Assistant Inspector General's Report ......................................................................... 1

Results in Brief .............................................................................................................. 2

Objective — Were the Internal Controls Prescribed by OMB Properly
Implemented for the National Transit Subsidy Program? ......................................... 3

          Finding #1— DOL Did Not Implement Key OMB Internal Controls ................ 4

          Finding #2 — DOL Had Additional Internal Control Deficiencies................... 8

Recommendations ...................................................................................................... 11

Exhibit .......................................................................................................................... 13

          Implementation of OMB Prescribed Internal Controls .................................. 15

Appendices.................................................................................................................. 17

          Appendix A - Background................................................................................ 19

          Appendix B - Objective, Scope, Methodology, and Criteria.......................... 21

          Appendix C - Acronyms ................................................................................... 25

          Appendix D - Agency Response ..................................................................... 27




                                                                                               Transit Subsidy Program
                                                                                       Report Number: 02-09-202-13-001
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                      Transit Subsidy Program
                              Report Number: 02-09-202-13-001
                                        U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                                   Office of Inspector General
                                                           Washington, DC 20210




March 31, 2009

                        Assistant Inspector General’s Report


Ms. Lisa D. Fiely
Acting Chief Financial Officer
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

Executive Order 13150 of April 21, 2000, established the Federal Workforce
Transportation program to reduce Federal employees’ contribution to traffic congestion
and air pollution, and to expand their use of public transportation. Each Federal agency
is permitted to provide a non-taxable transit subsidy designed to encourage its
employees to use mass transit for their daily commute.

In April 2007, the Government Accountability Office (GAO) issued a report citing
numerous instances of fraud and abuse of the Federal Workforce Transportation
program by Federal employees. To prevent further abuse, the Office of Management
and Budget (OMB) issued a memorandum on May 14, 2007, listing 10 minimum internal
controls and requiring all Federal agencies to confirm, no later than June 30, 2007, that
they had implemented these controls.

The audit objective was to determine if the internal controls prescribed by OMB were
properly implemented for the National transit subsidy program.

We reviewed available transit subsidy records for January 2008 through July 2008,
during which DOL distributed $1.5 million in transit subsidy benefits. The Bureau of
Labor Statistics (BLS) was excluded from this audit. During the audit, the responsibility
for administering the U.S. Department of Labor (DOL) National Capital Region’s
(National) transit subsidy program was transferred from the Office of the Assistant
Secretary for Administration and Management (OASAM) to the Office of the Chief
Financial Officer (OCFO). The Acting Chief Financial Officer (Acting CFO) responded to
the draft audit report on March 30, 2009.

We statistically selected 183 transit subsidy applications from May 2008 to audit transit
benefits paid to DOL National employees and verify implementation of OMB-prescribed
internal controls.


                                                                    Transit Subsidy Program
                                                            Report Number: 02-09-202-13-001
                                            1
                                        U.S. Department of Labor – Office of Inspector General


We incorporated the 10 minimum transit subsidy internal controls listed in OMB’s
May 14, 2007, memorandum into our audit. We evaluated OASAM internal controls
pertaining to the transit subsidy program, reviewed OASAM’s policies and
procedures, interviewed staff, and conducted tests of data accuracy.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS IN BRIEF

On June 22, 2007, DOL affirmed to OMB its compliance with the 10 minimum required
internal controls specified to prevent abuse and improve the administration of the transit
subsidy program. However, our audit revealed that key controls were not effectively
implemented. Furthermore, of the 183 applications statistically selected for review, 24
were missing because applications were haphazardly filed.

OASAM did not effectively implement the following six key OMB controls:

   •   Benefits Adjusted Due to Travel, Leave, or Change of Address – OASAM did not
       adjust benefits for any of the employees due to travel, leave or change of
       address. An OASAM official stated that it was not cost effective to make such
       monthly adjustments. Additionally, if an employee changes his or her address, it
       is the employee’s responsibility to inform OASAM.

   •   Applicants Checked Against Parking Benefits Records - OASAM had no
       documentation to support that transit subsidy applicants were compared to
       employees that received parking permits. We found that 27 employees were on
       both the transit subsidy and parking permit lists. Moreover, DOL had three
       conflicting criteria regarding vanpool members’ eligibility for transit subsidy.

   •   Commuting Cost Breakdown – None of the 159 applications available for review
       contained commuting cost breakdowns.

   •   Commuting Cost Verified by Approving Official - Approving OASAM official
       signatures to indicate verification of the applicants’ commuting costs were
       missing on 106, or 67 percent, of the159 applications available for review.




                                                                    Transit Subsidy Program
                                                            Report Number: 02-09-202-13-001
                                            2
                                         U.S. Department of Labor – Office of Inspector General


   •   Eligibility Verified by Approving Official – Employees’ supervisor signatures
       indicating verification of the applicants’ eligibility were missing on 14, or 9
       percent, of the 159 applications available for review.

   •   Removal from Transit Benefits Program Included in Exit Procedures - OASAM
       did not always adhere to its policy of obtaining employee separation clearance
       forms and removing employees listed as separated from the Smart Benefit data
       base. Of the183 sampled employees, four had been separated from DOL but
       were still in the May 2008 Smart Benefit database.

OASAM did not effectively implement the majority of OMB internal controls for the
following reasons: the controls were considered to be not required or not cost effective;
manager’s or supervisor’s responsibilities were not defined on applications; or a manual
data verification process was used.

We also identified four additional control deficiencies that put the National transit
subsidy program at risk for abuse: employees did not register their SmarTrip cards;
employees did not submit applications annually; OASAM did not perform automated edit
checks to prevent overpayments; and OASAM did not account for blank SmarTrip
cards. These deficiencies were caused by management not: enforcing the suspension
of transit benefits; recertifying applications annually; performing automated edit checks
to prevent overpayments; or having a policy to control blank SmarTrip cards. As a result
of internal controls not being effectively implemented, the transit subsidy program was
at risk for abuse.

In response to the draft report, the Acting CFO generally agreed with the findings and
has taken actions or plans to take actions to address the findings and recommendations
to ensure compliance with the prescribed OMB internal controls and to improve other
internal controls over the National transit subsidy program. The Acting CFO’s response
is included in its entirety as Appendix D.

RESULTS AND FINDINGS

Objective – Were the internal controls prescribed by OMB properly implemented
for the National transit subsidy program?

OASAM did not effectively implement 6 of the 10 minimum required internal controls
prescribed by OMB to prevent abuse and improve the administration of the transit
subsidy program. Moreover, we identified four additional internal control deficiencies
that put the National transit subsidy program at risk for abuse.




                                                                     Transit Subsidy Program
                                                             Report Number: 02-09-202-13-001
                                             3
                                       U.S. Department of Labor – Office of Inspector General


Finding #1 – DOL did not implement key OMB internal controls.

On June 22, 2007, DOL affirmed to OMB its compliance with the 10 minimum required
internal controls specified to prevent abuse and improve the administration of the
program. However, our audit revealed that OASAM did not effectively implement 6 of
these key controls. These controls were not implemented because OASAM considered
controls as not required or cost effective; manager’s or supervisor’s responsibilities
were not defined on applications; or a manual data verification process was used.
Furthermore, of the 183 applications statistically selected for review, 24 were missing
because applications were haphazardly filed. Many applications were difficult to locate
because they were not filed in any specific order or locations. As a result of internal
controls not being effectively implemented, a minimum of nine percent of transit
subsidies were not properly calculated, and employees may not have been eligible for
transit benefits.

   A. Benefits Adjusted Due to Travel, Leave, or Change of Address – OASAM did not
      adjust transit subsidy benefits for any of the transit benefit employees due to
      travel, leave or change of address. An OASAM official stated that benefits were
      not adjusted on a monthly basis because it was not cost effective. However,
      OASAM did not perform a cost-benefit analysis to determine the cost and
      feasibility of implementing such a system. Furthermore, if an employee changes
      his or her address, it is the employee’s responsibility to inform OASAM.

      The Acting CFO agreed to perform a formal cost benefit analysis to determine if
      the cost of implementing this internal control requirement for the National transit
      subsidy program is cost effective.

   B. Applicants Checked Against Parking Benefits Records – OASAM had no
      documentation to support that transit subsidy applicants were compared to
      employees that received parking permits. We found 27 employees that were on
      both the transit subsidy and parking permit lists, 13 of whom collected $1,310 in
      transit subsidies in May 2008 while they also used parking permits. OASAM had
      inadequate controls in place to check transit subsidy applicants against parking
      benefit records to prevent employees from receiving both benefits.

      Moreover, DOL had three conflicting criteria regarding vanpool members’
      eligibility for transit subsidies. While the U.S. Department of Labor Manual Series
      (DLMS), OASAM’s Office of Financial Management Operations (OFMO) National
      Office Transit Subsidy Procedures, and DOL Policy Guidance for Transit Subsidy
      Benefits Program, clearly stated that members of a carpool were not eligible for
      transit subsidies, the procedures were in conflict regarding transit subsidy
      eligibility for members of a vanpool. Depending on which procedure was applied,
      anywhere from 9 to 13 employees (8 carpool members, 1 individual, and
      potentially 4 vanpool members) improperly collected transit subsidies.



                                                                   Transit Subsidy Program
                                                           Report Number: 02-09-202-13-001
                                            4
                                 U.S. Department of Labor – Office of Inspector General




DLMS 2-528 (O), Governing Rules, under DOL parking policy, dated
May 7, 2004, states:

       Transportation Subsidies designed to promote mass transit (bus
       and rail) shall not be available to DOL parking permit or
       authorization holders, nor shall transportation subsidies be
       available to any of the members of a car or vanpool.

OFMO National Office Transit Subsidy Procedures states:

       The following persons are NOT eligible to receive the DOL transit
       subsidy … Persons who receive any other form of transportation
       subsidy, such as subsidized parking or as a member of a carpool…

       Riders in WMATA-approved vanpools are eligible to receive a
       transit subsidy. The vanpool driver does NOT receive a transit
       subsidy but does receive a discount on the parking fees charged for
       DOL parking spaces….

DOL Policy Guidance for Transit Subsidy Benefits Program, under
Eligibility, states:

       Drivers, alternate drivers, and passengers of qualified vanpools
       receiving a free Federal parking benefit are eligible for transit
       subsidy benefits. (Underscoring added.)

If the current OFMO National Office Transit Subsidy Procedures were applied,
three of the four employees (all but the driver) in a vanpool would have been
eligible to collect transit subsidies. The driver would have been excluded. If
DLMS 2-528 were applied, none of the four vanpool members would have been
eligible to receive transit subsidy. In contrast, if the DOL Policy Guidance for
Transit Subsidy Benefits Program was applied, all four vanpool members would
have been eligible for transit subsidy.

The Acting CFO agreed there was no documentation to support that transit
subsidy participants were compared to the DOL parking garage permits list to
ensure participants were not receiving both benefits, and contacted the OASAM
Business Operation Center (BOC) to obtain monthly updates to the DOL parking
list to compare them to the transit database. The Acting CFO also agreed that
DOL has conflicting policy criteria regarding vanpool member eligibility for transit
subsidies and has contacted the OASAM BOC to coordinate and update the
guidance related to transit eligibility requirements for vanpool drivers and
passengers to ensure consistency of operations.



                                                             Transit Subsidy Program
                                                     Report Number: 02-09-202-13-001
                                      5
                                      U.S. Department of Labor – Office of Inspector General




C. Commuting Cost Breakdown - There were no detailed commuting cost
   calculations on any of the 159 available applications. The applications required
   the mode of transportation and the starting point. Although required by OMB,
   OASAM officials believed there was no requirement to include commuting cost
   breakdowns on the applications. As a result, OASAM could not demonstrate the
   basis of the calculations and if transit subsidies claimed were proper.

   The Acting CFO agreed that detailed commuting cost calculations were not
   included on the transit applications reviewed. In March 2009, OCFO created and
   implemented an updated transit subsidy benefit application form and transit cost
   worksheet incorporating the internal control requirements outlined in the
   May 14, 2007, OMB memorandum. The new process entails a signature of the
   transit staff member performing the calculation based on the worksheet
   assessment.

D. Commuting Cost Verified by Approving Official - Approving OASAM official
   signatures to indicate verification of the applicants’ commuting costs were
   missing on 106, or 67 percent, of the 159 available applications. We calculated
   the benefit amount for each employee in the sample and found 17, or 11 percent,
   of employees received transit benefits that exceeded the amount to which they
   were entitled. Many of these employees were on a flexi-place work schedule and
   worked from home at least one day per week, but their transit subsidy was not
   pro-rated to reflect the actual number of days the employees commuted to work.

   OASAM officials stated they used Washington Metropolitan Area Transit
   Authority’s (WMATA) electronic Trip Planner to calculate the transit fare, and the
   transit subsidy amounts on the applications were written by OASAM staff, but the
   need for the approving official’s signature was overlooked. However, none of the
   applications contained documentation to demonstrate that OASAM staff used the
   WMATA Trip Planner to verify transit subsidy calculations, and the majority of the
   applications did not include an OASAM official’s signature indicating the
   commuting cost was verified.

   The Acting CFO agreed that approving official signatures were missing on the
   majority of the transit applications reviewed. Per DOL Transit Policy Guidance,
   an OCFO transit official is required to sign all transit applications after verifying
   and annotating the allowable transit subsidy benefit amount on the transit
   application form. OCFO transit employees have been instructed to sign all transit
   subsidy benefit application forms prior to issuing employees transit subsidy
   benefits.

E. Eligibility Verified by Approving Official – Employees’ supervisory signatures
   indicating verification of the applicants’ eligibility were missing on 14, or 9



                                                                  Transit Subsidy Program
                                                          Report Number: 02-09-202-13-001
                                          6
                                    U.S. Department of Labor – Office of Inspector General


   percent, of the available applications. Of the 14 applications without approval, 12
   were old applications that did not contain a signature block for eligibility
   verification by an approving official. These old applications, which should have
   been updated, did not require employees to fill out if they were full-time, part-time
   or on Flexiplace. As a result, employees may not have been eligible for the
   transit subsidy benefits they received. (Refer to Finding #2B – Employees did not
   submit applications annually, for additional information regarding annual
   recertification of transit subsidies.)

   Moreover, the approving officials’ responsibilities were not defined on the transit
   subsidy applications. Although their responsibilities were delineated in DOL
   guidance, they should also be included on the application to remind officials
   that they are responsible to verify: employee address is correct; amount is
   accurate; application is complete; and the employee is eligible to receive transit
   benefits.

   DOL Policy Guidance for Transit Subsidy Benefits Program states:

          Managers/supervisors will: . . . Review, approve and sign employee
          application for Public Transportation Benefit. (Verify employee
          address is correct, amount is accurate, application is complete and
          employ is eligible to receive transit benefits.)

   The Acting CFO agreed that supervisor signatures were missing on some of the
   transit application forms and that some of the older transit subsidy benefit
   application forms did not include a field for the employee to annotate their work
   schedule. In August 2008, OCFO implemented an annual reapplication program
   for all eligible transit subsidy recipients. The new form includes fields for
   employees to indicate their work schedule. Approving official responsibilities are
   outlined in the DOL transit policy guide, which will be updated with new
   approving official responsibilities for approving employee eligibility for the DOL
   transit subsidy program.

F. Removal from Transit Benefits Program Included in Exit Procedures – OASAM
   requires employees that separate from DOL to complete and submit the
   Separation Clearance form DL 1-107 to OASAM but this process was not
   consistently followed. Of the183 sampled employees, four had been separated
   from DOL but were still in the May 2008 Smart Benefit database. While these
   employees did not collect transit subsidies, the risk is high that separated
   employees could collect subsidies to which they are not entitled.

   The Acting CFO did not agree with this finding. The OCFO implemented exit
   procedures that updated the DOL Separation Clearance form DL1-107 to include
   the clearing of National office prior to separating or retiring from the DOL. OCFO



                                                                Transit Subsidy Program
                                                        Report Number: 02-09-202-13-001
                                         7
                                         U.S. Department of Labor – Office of Inspector General


       prepared and distributed an email notification to all DOL National office HR and
       administrative officers outlining DOL Personnel Regulation 179, which includes
       the separation clearance requirements. The DOL separation clearance program
       falls under the responsibilities of DOL’s human resource offices and not OCFO.
       Also in March 2009, OCFO redistributed a reminder to the Department’s
       Administrative Officers and Agency Financial Managers of the process to be
       followed for the Separation Clearance forms, which includes the Transit review.

       While OCFO may not have ultimate responsibility to ensure DOL’s human
       resource offices complete and submit required forms, we believe it needs to work
       with Department officials to reduce the risk that employees separating from DOL
       could collect subsidies to which they are not entitled.

Finding #2 – DOL had additional internal control deficiencies.

In the course of our audit, we also identified four additional control deficiencies that put
the National transit subsidy program at risk for abuse: Employees did not register their
SmarTrip cards; employees did not submit applications annually; OASAM did not
perform automated edit checks to prevent overpayments; and OASAM did not account
for blank SmarTrip cards. These deficiencies were caused by management not:
enforcing the suspension of transit benefits; recertifying applications annually;
performing automated edit checks to prevent overpayments; or having a policy to
control blank SmarTrip cards. As a result of internal controls not being effectively
implemented, the transit subsidy program was at risk for abuse.

A. Employees did not register their SmarTrip cards.

The SmarTrip online registration process required employees to provide their name,
address, email address, contact number, and password. The advantage of creating the
account is that if the card is lost, damaged, or stolen, WMATA can transfer the unused
value from that card onto another card. OASAM also needed this information to identify
the name of the cardholder, verify the subsidy amount, and determine whether the
individual was a DOL employee.

OFMO National Office Transit Subsidy Procedures state:

       DOL employees who do not register their SmarTrip card with WMATA
       within 30 days of being registered in the Smart Benefits database will have
       their benefits suspended until they register their SmarTrip card with
       WMATA.

In May 2008, 80, or 4 percent, of the 1,898 SmarTrip transactions totaling $6,000 were
charged to unregistered SmarTrip cards. However, OASAM did not enforce the
provision to suspend benefits on those unregistered cards. As a result, OASAM



                                                                     Transit Subsidy Program
                                                             Report Number: 02-09-202-13-001
                                              8
                                        U.S. Department of Labor – Office of Inspector General


permitted charges to unregistered SmarTrip cards, and the correct benefit amount could
not be determined.

The Acting CFO agreed that a number of DOL National office employees did not
register their SmarTrip card through WMATA. Due to a lack of formal union negotiations
on this policy requirement, OCFO was unable to implement the policy of removing
employees from the transit benefit program. In March 2009, OCFO implemented a new
policy to require employees to register their SmarTrip card with WMATA prior to any
action being taken in the DOL Smart Benefits database. OCFO transit points of contact
have been instructed to verify that each employee’s SmarTrip card is registered with
WMATA before taking any action to add or update an employee’s information in the
DOL Smart Benefits database.

B. Employees did not submit applications annually.

Of the 159 available applications, 64, or 40 percent, were dated 2006 or prior. Many of
these outdated applications were in a format that did not include a requirement for
employees to designate if they were full-time, part-time or on Flexiplace. Without this
information, it is unclear how OASAM could properly determine the employee’s transit
subsidy amount or why OASAM did not enforce its requirement for employees to
reapply for transit subsidy benefits annually. According to an OASAM official, they are in
the process of recertifying all transit benefit employees and the process is very time
consuming.

OFMO National Office Transit Subsidy Procedures state:

      Verification of Employee Eligibility and Participation Level Requirements
      … Once a year, OFMO ensures that each DOL employee who is enrolled
      in the Transit Subsidy Program submits a new application form before
      receiving future benefits. The re-application process is part of DOL’s
      ongoing efforts to strengthen internal controls related to the Transit
      Subsidy Benefit Program.

The Acting CFO agreed with this finding. In August 2008, OCFO implemented the
annual transit subsidy reapplication program requiring all DOL National office
employees to reapply for transit subsidy benefits. The DOL National office reapplication
program is set up to operate throughout the year with one or multiple agencies
requested to reapply for transit subsidy benefits each month. This reapplication program
is ongoing with employees in eight DOL National office agencies having completed the
reapplication process as of March 2009.




                                                                    Transit Subsidy Program
                                                            Report Number: 02-09-202-13-001
                                            9
                                        U.S. Department of Labor – Office of Inspector General


C. OASAM did not perform automated edit checks to prevent overpayments.

Our review of May 2008 transit subsidy transactions found 3 of the 159 employees
reviewed received transit subsidy benefits greater than the maximum transit subsidy
allowed. These employees either received benefits from multiple SmarTrip cards, or
both SmarTrip cards and Farecards. In January 2008 the maximum transit subsidy at
DOL was increased to $110 per month for all eligible employees. OASAM did not
perform automated edit checks to prevent overpayments. According to an OASAM
official, the unwritten policy was for staff to manually verify that employees were not
receiving more than the maximum transit subsidy as part of the month-end review
process. However, this verification process was not documented.

   •   Employees with Multiple SmarTrip Cards - Twenty-three employees had multiple
       SmarTrip cards in the Smart Benefits database. Two of these employees
       received combined benefits from both cards over the $110 limit.

   •   Employees Appearing on Both Smart Benefit and Farecard Listings - Twenty-two
       employees on the Smart Benefit Report were also on the Farecard Signature
       List. Three of these employees received benefits on both the SmarTrip card and
       Farecard. One of the three employees claimed a combined transit subsidy above
       the $110 limit.

The Acting CFO did not agree with this finding, stating that the Smart Benefits program
software is owned by WMATA, not DOL; and she was not aware of any requirement to
perform automated edit checks within the transit subsidy benefit program. Furthermore,
preliminary research of this finding showed that a number of the names identified as
duplicate employees were actually separate individuals with the same name. In the
past, when adding a new card, OCFO had to manually remove the old card from the
WMATA database. However, WMATA had one enhancement to its system since Smart
Benefits’ inception that OCFO has adopted. OCFO is now using the enhanced feature
in the WMATA database to reassign a benefit from one card to another card in the
system, which automatically removes the old card.

The OIG agrees that OCFO’s action to use the WMATA enhancement to automatically
reassign benefits from one card to another may prevent employees from receiving more
than the maximum transit subsidy. However, OCFO needs to ensure it has taken
appropriate action regarding the employees we identified in our audit as having multiple
SmarTrip Cards or appearing on both the Smart Benefit and Farecard listing..




                                                                    Transit Subsidy Program
                                                            Report Number: 02-09-202-13-001
                                            10
                                      U.S. Department of Labor – Office of Inspector General


D. OASAM did not account for blank SmarTrip cards.

OASAM did not have accountability over blank SmarTrip cards. The blank SmarTrip
cards were maintained in a locked overhead file cabinet. These SmarTrip cards were
purchased through WMATA for $5 per card. During our audit fieldwork, there were
1,095 blank SmarTrip cards with a total value of $5,475.

GAO Standards for Internal Control in the Federal Government states:

      An agency must establish physical control to secure and safeguard
      vulnerable assets. Examples include security for and limited access to
      assets such as cash, securities, inventories, and equipment which might
      be vulnerable to risk of loss or unauthorized use. Such assets should be
      periodically counted and compared to control records. (Underscoring
      added.)

OASAM never performed an inventory of the SmarTrip cards. Employees who received
the SmarTrip card issued by OASAM were required to write down the SmarTrip card
number and to sign the Transit Subsidy System Signature List. According to an OASAM
official, the initial goal was to distribute SmarTrip cards to employees as quickly as
possible and emphasis was not placed on record keeping. The DOL SmarTrip program
began January 2008 and the SmarTrip cards were never reconciled. Since SmarTrip
cards can be used on the public transportation system or sold by anyone who
possessed them, they needed to be periodically counted and compared to control
records to prevent against abuse.

The Acting CFO did not agree with this finding. OCFO ordered 2,000 $5 SmarTrip cards
from WMATA in November 2007 and the accounting supervisor performed an inventory
and count of the SmarTrip cards upon delivery to verify that 2,000 SmarTrip cards were
received. Physical control of SmarTrip cards has been maintained in a secure
environment in a locked cabinet in the supervisor’s work area with limited access.
However, the Acting CFO agreed to record existing SmarTrip card inventory by serial
number on a spreadsheet and perform an annual inventory and card count.

The OIG agrees with this approach. However, the annual inventory should be
incorporated into written policy to ensure continued compliance with GAO Standards for
Internal Control.

Recommendations

We recommend that the Chief Financial Officer:

   1. Develop a system to adequately file and maintain transit subsidy applications.




                                                                  Transit Subsidy Program
                                                          Report Number: 02-09-202-13-001
                                          11
                                        U.S. Department of Labor – Office of Inspector General


   2. Comply with OMB controls for Benefits Adjusted Due to Travel, Leave, or
      Change of Address and completing Commuting Cost Breakdown. If a control is
      believed not to be cost effective, a documented cost-benefit analysis should be
      provided.

   3. Develop and implement a consistent policy of transit subsidy eligibility for
      vanpool members.

   4. Ensure approving officials sign the application to indicate that they verified the
      applicant’s commuting cost.

   5. Define approving official’s responsibilities on the application for employee
      eligibility verification.

   6. Suspend transit subsidy benefits to employees who do not register their
      SmarTrip cards with WMATA.

   7. Automate data verification processes to ensure only eligible employees receive
      transit subsidies, and that the amounts received do not exceed the maximum
      amount allowed by the program.

   8. Require all employees enrolled in the transit subsidy program to submit a new
      application form annually before receiving future benefits.

   9. Establish written policy ensuring blank SmarTrip cards are periodically counted
      and compared to control records.




Michael A. Raponi




                                                                    Transit Subsidy Program
                                                            Report Number: 02-09-202-13-001
                                            12
          U.S. Department of Labor – Office of Inspector General




Exhibit




                                      Transit Subsidy Program
                              Report Number: 02-09-202-13-001
              13
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                      Transit Subsidy Program
                              Report Number: 02-09-202-13-001
              14
                                                 U.S. Department of Labor – Office of Inspector General


                                                                                             EXHIBIT


                                     IMPLEMENTATION OF
                              OMB PRESCRIBED INTERNAL CONTROLS



                                                                                  Effectively     Report
                      OMB Prescribed Internal Controls
                                                                                 Implemented      Finding
Application Requirements
 1. Employee Home Address                                                             Yes             -
 2. Employee Work Address                                                             Yes             -
 3. Commuting Cost Breakdown                                                           No            1C
 4. Employee Certification of Eligibility                                             Yes             -
 5. Warning Against Making False Statements in Benefit Application                    Yes             -
Independent Verification of Eligibility
 6. Commuting Cost Verified by Approving Official                                      No            1D
 7. Eligibility Verified by Approving Official                                         No            1E
Implementation
 8. Applicants Checked Against Parking Benefits Records                                No            1B
 9. Benefits Adjusted Due to Travel, Leave, or Change of Address                       No            1A
10. Removal from Transit Benefits Program Included in Exit Procedures                  No            1F




                                                                             Transit Subsidy Program
                                                                     Report Number: 02-09-202-13-001
                                                     15
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                      Transit Subsidy Program
                              Report Number: 02-09-202-13-001
              16
             U.S. Department of Labor – Office of Inspector General




Appendices




                                         Transit Subsidy Program
                                 Report Number: 02-09-202-13-001
                 17
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                      Transit Subsidy Program
                              Report Number: 02-09-202-13-001
              18
                                        U.S. Department of Labor - Office of Inspector General


                                                                              APPENDIX A
Background

Executive Order 13150 of April 21, 2000, established the Federal Workforce
Transportation program to reduce Federal employees’ contribution to traffic congestion
and air pollution, and to expand their use of public transportation. Each Federal agency
is permitted to provide a non-taxable transit subsidy designed to encourage its
employees to use mass transit for their daily commute. During the audit, the
responsibility for administering the DOL National transit subsidy program was
transferred from OASAM to OCFO.

April 24, 2007, GAO report “Federal Transit Benefits Program Ineffective Controls
Result in Fraud and Abuse by Federal Workers” illustrated numerous instances of fraud
and abuse of the Federal Transit Benefit Program. In a response to this report, OMB
issued memorandum dated May 14, 2007, to all heads of departments and agencies,
requiring additional controls to prevent further abuse of this program. The letter
specifically mentions 10 controls in the areas of: Application Requirements,
Independent Verification of Eligibility, and Implementation as follows.

          Application Requirements
            1. Employee Home Address
            2. Employee Work Address
            3. Commuting Cost Breakdown
            4. Employee Certification of Eligibility
            5. Warning Against Making False Statements in Benefit Application

          Independent Verification of Eligibility
             6. Commuting Cost Verified by Approving Official
             7. Eligibility Verified by Approving Official

          Implementation
             8. Applicants Checked Against Parking Benefits Records
             9. Benefits Adjusted Due to Travel, Leave, or Change of Address
             10. Removal from Transit Benefits Program Included in Exit Procedures

On June 22, 2007, DOL affirmed to OMB compliance with the 10 minimum required
internal controls specified to prevent abuse and improve the administration of the
program.

Transit subsidies at DOL Headquarters are disbursed either through Farecards or
SmarTrip cards. Employees may use Farecards to ride Metrorail. Farecards come in
denominations of $30, $20, $10, $5, or $1 each. SmarTrip cards are permanent,
rechargeable farecards. SmarTrip cards are usable on either bus or rail and must be
used to pay for parking at Metrorail stations.


                                                                    Transit Subsidy Program
                                                            Report Number: 02-09-202-13-001
                                           19
           U.S. Department of Labor - Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                       Transit Subsidy Program
                               Report Number: 02-09-202-13-001
              20
                                        U.S. Department of Labor – Office of Inspector General


                                                                              APPENDIX B
Objective, Scope, Methodology, and Criteria

Objective

The audit objective was to determine if the internal controls prescribed by OMB were
properly implemented for the National transit subsidy program.

Scope

We reviewed available transit subsidy records for January 2008 through July 2008, as
well as participant applications, parking and personnel records for May 2008, during
which DOL distributed transit subsidy benefits of $1.5 million through the SmarTrip
cards or Farecards. BLS was excluded from this audit because it separately operates
the transit subsidy program for its employees. During the audit, the responsibility for
administering the DOL National transit subsidy program was transferred from OASAM
to OCFO.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

In planning and performing our audit, we considered internal controls of OASAM’s
National transit subsidy program by obtaining an understanding of the program’s
internal controls, determining whether internal controls had been placed in operation,
assessing control risk, and performing tests of controls in order to determine our
auditing procedures for the purpose of achieving our objective.

Our consideration of OASAM’s internal controls would not necessarily disclose all
matters that might have been significant deficiencies. Because of inherent limitations in
internal controls, misstatements, losses, or noncompliance may nevertheless occur and
not be detected. Furthermore, the nature, timing and extent of audit procedures were
determined by the significance of the information and the level of detail presented in our
findings and conclusions in light of the audit objective.

Methodology

From a population of 2,227, 183 transit subsidy applications from May 2008 were
statistically selected to verify compliance with OMB prescribed internal controls. Of the
183 applications, 68 were for Farecards and 115 were for SmarTrip cards. Applications
were compared to personnel records, and the amounts of benefits were computed to


                                                                    Transit Subsidy Program
                                                            Report Number: 02-09-202-13-001
                                            21
                                             U.S. Department of Labor – Office of Inspector General


confirm that benefit received did not exceed the maximum amount allowed. Since audit
results were sufficient to demonstrate that the Department did not comply with OMB
internal controls, projection was not needed. For May 2008, we compared information
on the Farecards and SmarTrips to ensure employees were not receiving more than the
maximum allowable amount of $110. We compared all employees that received transit
subsidy benefits to those employees on the parking permit listing. For purpose of
accountability verification, we performed a physical count of the Farecards and
SmarTrip cards as of September 9, 2008, and September 10, 2008, respectively.

We used a stratified two-stage cluster sampling design for sample selection. DOL
agencies were stratified separately into three different strata according to the number of
participants in the programs. As shown in the following table, eight agencies for
Farecard program and 10 agencies for SmarTrip program were randomly selected from
these strata. Sample design and sample sizes were selected to yield a sampling
precision of (+/-) 7 percent to (+/-) 9 percent) at 95 percent confidence level.

                               DOL Agency                              Farecard   SmarTrip   Total
 Administrative Review Board                                                  -         9        9
 Benefits Review Board                                                       8         12       20
 Bureau of International Labor Affairs                                        -        12       12
 Employment and Training Administration                                       -        15       15
 Employment Standards Administration                                        14           -      14
 Occupational Safety and Health Administration                              11         12       23
 Office of Disability Employment Policy                                      7           -       7
 Office of Inspector General                                                 8           -       8
 Office of Public Affairs                                                    4           -       4
 Office of the Assistant Secretary for Administration and Management          -        12       12
 Office of the Chief Financial Officer                                       7           -       7
 Office of the Secretary                                                      -        12       12
 Office of the Solicitor                                                     9         12       21
 Veterans' Employment & Training Service                                      -        11       11
 Women's Bureau                                                               -         8        8
                                  Total                                     68        115      183



We conducted fieldwork for this performance audit at the Frances Perkins Building in
Washington, D.C.




                                                                           Transit Subsidy Program
                                                                   Report Number: 02-09-202-13-001
                                                 22
                                       U.S. Department of Labor – Office of Inspector General


Criteria

OFMO National Office Transit Subsidy Procedures, Revised September 8, 2008

Executive Order 13150 of April 21, 2000; Federal Workforce Transportation

OMB Memorandum, Federal Transit Benefits Program, May 14, 2007

DLMS 2 – Chapter 520 DOL Parking Policy, May 7, 2004

United States General Accounting Office, Standards for Internal Control in the Federal
Government, November 1999

Department of Labor Policy Guidance for Transit Subsidy Benefits Program, updated
September 15, 2008




                                                                   Transit Subsidy Program
                                                           Report Number: 02-09-202-13-001
                                           23
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                      Transit Subsidy Program
                              Report Number: 02-09-202-13-001
              24
                                      U.S. Department of Labor – Office of Inspector General


                                                                            APPENDIX C
Acronyms

BLS        Bureau of Labor Statistics

BOC        Business Operation Center

DLMS       U.S. Department of Labor Manual Series

DOL        U.S. Department of Labor

GAO        Government Accountability Office

National   National Capital Region

OASAM      Office of the Assistant Secretary for Administration and Management

OCFO       Office of the Chief Financial Officer

OFMO       Office of Financial Management Operations

OIG        Office of Inspector General

OMB        Office of Management and Budget

WMATA      Washington Metropolitan Area Transit Authority




                                                                  Transit Subsidy Program
                                                          Report Number: 02-09-202-13-001
                                          25
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                      Transit Subsidy Program
                              Report Number: 02-09-202-13-001
              26
                                  U.S. Department of Labor – Office of Inspector General


                                                                          Appendix D
Agency Response to Draft Report




                                                              Transit Subsidy Program
                                                      Report Number: 02-09-202-13-001
                                      27
U.S. Department of Labor – Office of Inspector General




                            Transit Subsidy Program
                    Report Number: 02-09-202-13-001
    28
U.S. Department of Labor – Office of Inspector General




                            Transit Subsidy Program
                    Report Number: 02-09-202-13-001
    29
U.S. Department of Labor – Office of Inspector General




                            Transit Subsidy Program
                    Report Number: 02-09-202-13-001
    30
U.S. Department of Labor – Office of Inspector General




                            Transit Subsidy Program
                    Report Number: 02-09-202-13-001
    31
U.S. Department of Labor – Office of Inspector General




                            Transit Subsidy Program
                    Report Number: 02-09-202-13-001
    32
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:      http://www.oig.dol.gov/hotlineform.htm
Email:       hotline@oig.dol.gov

Telephone:   1-800-347-3756
             202-693-6999

Fax:         202-693-7020

Address:     Office of Inspector General
             U.S. Department of Labor
             200 Constitution Avenue, N.W.
             Room S-5506
             Washington, D.C. 20210




                              33
